January 18, 2013

TO:            Donna Jones
               Chief Financial Officer
               National Institute on Drug Abuse
               National Institutes of Health


FROM:          /Gloria L. Jarmon/
               Deputy Inspector General for Audit Services


SUBJECT:       Independent Attestation Review: National Institute on Drug Abuse Assertions
               Concerning Drug Control Accounting for Fiscal Year 2012 (A-03-13-00353)


This report provides the results of our attestation review of the National Institute on Drug Abuse
(NIDA) fiscal year (FY) 2012 assertions concerning drug control accounting and accompanying
table of FY 2012 Actual Obligations (Table).

Each National Drug Control Program agency must submit to the Director of the Office of
National Drug Control Policy (ONDCP), not later than February 1 of each year, a detailed
accounting of all funds expended by the agency for National Drug Control Program activities
during the previous FY (21 U.S.C. § 1704(d)(A)). The section further requires that the
accounting be “authenticated by the Inspector General for each agency prior to submission to the
Director.” The report and related assertions are the responsibility of NIDA’s management and
were prepared by NIDA as specified in section 6 of the ONDCP Circular entitled Drug Control
Accounting, dated May 1, 2007.

As required by the Federal statute (21 U.S.C. § 1704(d)(A)), we reviewed the attached NIDA
report entitled “Assertions Concerning Drug Control Accounting,” dated November 2, 2012. We
conducted our attestation review in accordance with attestation standards established by the
American Institute of Certified Public Accountants and the standards applicable to attestation
engagements contained in Government Auditing Standards issued by the Comptroller General of
the United States. A review is substantially less in scope than an examination, the objective of
which is to express an opinion on management’s assertions contained in its report; accordingly,
we do not express such an opinion.
Page 2 – Donna Jones


NATIONAL INSTITUTE ON DRUG ABUSE REPORT

NIDA reported obligations totaling $1,052,368,102.

In accordance with ONDCP requirements, NIDA made the following assertions:

   •   NIDA reported its actual obligations from its accounting system of record for the
       reported budget decision units,

   •   NIDA’s drug methodology used to calculate obligations of prior-year budgetary
       resources by function were reasonable and accurate in accordance with the criteria in
       section 6b(2) of the ONDCP Circular,

   •   the drug methodology that NIDA disclosed in its report was the actual methodology used
       to generate the required Table,

   •   NIDA’s obligations against a financial plan that was revised during the FY were reported
       in accordance with ONDCP requirements, and

   •   NIDA’s report reflected data associated with obligations against a financial plan that fully
       complied with all Fund Control Notices and ONDCP budgetary circulars.

We performed review procedures on NIDA’s assertions and the accompanying Table. In
general, we limited our review procedures to inquiries and analytical procedures appropriate for
the attestation review.

OFFICE OF INSPECTOR GENERAL CONCLUSION

Based on our review, nothing came to our attention that caused us to believe that NIDA’s
assertions and accompanying Table were not fairly stated, in all material respects, based on the
ONDCP Circular.

                                            ********

Although this report is an unrestricted public document, the information it contains is intended
solely for the information and use of Congress, ONDCP, and NIDA and is not intended to be, and
should not be, used by anyone other than these specified parties. If you have any questions or
comments about this report, please do not hesitate to call me, or your staff may contact Kay L.
Daly, Assistant Inspector General for Audit Services, at (202) 619-1157 or through email at
Kay.Daly@oig.hhs.gov. Please refer to report number A-03-13-00353 in all correspondence.


Attachment
ATTACHMENT
(2
                                                                                             ATTACHMENT
                                                                                             Page 1 of 4
                DEPARTMENT OF HEALTH & HUMAN SERVICES 	                                     Public Health Service


"'r" Y<,qb\.­                                                                               National Institutes of Health
                                                              NOV J 2012                    National Institute on Drug Abuse
                                                                                            Bethesda, Maryland 20892

           MEMORANDUM TO: 	               Director
                                          Office of National Drug Control Policy

           THROUGH: 	                     Sheila Conley
                                          Deputy Assistant Secretary of Finance


           FROM:                          Donna Jones
                                          Chief Financial Officer
                                          National Institute on Drug Abuse
                                                                            mr
                                          Department of Health and Human Services

                                                                 ~(.t.-

           SUBJECT: 	                     Assertions Concerning Drug Control Accounting


           In accordance with the requirements of the Office of National Drug Control Policy Circular
           "Annual Accounting of Drug Control Funds," I make the following assertions regarding the
           attached annual accounting of drug control funds:

           Obligations by Budget Decision Unit

           I assert that obligations reported by budget decision unit are the actual obligations from the NIH
           financial accounting system for this budget decision unit after using NIDA's internal system to
           reconcile the NIH accounting system during the year.

           Drug Methodology

           I assert that the drug methodology used to calculate obligations of prior year budgetary resources
           by function for the institute was reasonable and accurate in accordance with the criteria listed in
           Section 6b(2) of the Circular. In accordance with these criteria, I have documented data which
           support the drug methodology, explained and documented other estimation methods (the
           assumptions for which are subject to periodic review) and determined that the financial systems
           supporting the drug methodology yield data that present fairly, in all material respects, aggregate
           obligations from which drug-related obligation estimates'are derived.

           Obligations of prior year drug control budgetary resources are calculated as follows:

           FY 2012 actual obligations were determined by identifying NIDA support for projects that
           address drug prevention and treatment. Projects for inclusion in the ONDCP budget are
           identified from the NIDA coding system and database known as the "NEPS" system (NIDA
           Extramural Project System). Data are entered into this system by program staff. NIDA does not
           need to make any assumptions or estimates to isolate its total drug control obligations as the total
           appropriation is drug control.

           As the supporter of more than 85% of the world's research on drug abuse and addiction, the
                                                                                    ATTACHMENT
                                                                                    Page 2 of 4




National Institute on Drug Abuse (NIDA) provides a strong science base for our Nation's efforts
to reduce the abuse of drugs and their consequences. NIDA's comprehensive research portfolio
addresses a broad range of drug abuse and addiction issues, ranging from the support of
fundamental neurobiology to community-based research. As our Nation looks for science-based
approaches to enhance its prevention and treatment efforts, NIDA's broad portfolio and its
continuing efforts to work with other Agencies and NIH Institutes on a variety of
transdisciplinary issues will provide the tools necessary to move these efforts forward. Research
serves as the cornerstone ofNIDA's efforts to disseminate research information and educate
health professionals and the public, especially our Nation's youth, about the factors influencing
drug use, its consequences, and about science-based and tested treatment and prevention
techniques. These research and dissemination efforts to develop, test, and disseminate
information on the basis of addiction, its consequences, and enhanced therapeutic techniques
support the ONDCP Goal 3 (treatment). Efforts to enhance the science base and disseminate
information on the factors that inhibit and facilitate drug use and its progression to addiction and
other health consequences, and on science-based approaches for prevention interventions support
the ONDCP Goal 1 (prevention).

NIDA obligations are allocated between prevention and treatment research based on the
professional judgment of scientific program officials on specific grant and contract projects.
These scientists review the grant applicatiqn, project purpose and methodology, and/or progress
report to determine whether the project meets NIDA's criteria for categorization as prevention or
as treatment research. Projects are coded and entered into the NEPS system prior to funding.

The total ofNIDA's original appropriation for 2012 was $1,055,362,000. The Consolidated
Appropriations Act of2012 reduced NIDA's appropriation by $1,994,634 as part of a rescission
to the NIH of .189%. In addition, a Secretary's Transfer in the amount of $300,000 for AIDS
drug assistance programs and another transfer for Alzheimer Disease in the amount of $694,000
reduced to the NIDA appropriation to $1,052,373,271. NIDA obligated $1,052,368,102 and
$5,169 lapsed. The actual amount obligated reconciles to the NIDA Database system. The total
of$1,052,373,271 does not reconcile to the FY 2012 column ofthe FY 2013 Congressional
Justification (CJ). This is because the FY 2012 column of the FY 2013 CJ includes 1 comparable
transfer totaling $953,000 but not the Secretary's Transfer for Alzheimer Disease in the amount
of $694,000.


Application of Methodology

I assert that the drug methodology described in the preceding section was the actual methodology
used to generate the table required by Section 6a. NIDA has not modified its drug methodology
from the previous year. The difference between NIDA's actual obligations and the National
Drug Control Strategy Budget summary number for FY 2012 are for the same reasons described
above for the FY 2012 column of the FY 2013 CJ.

Reprogrammings or Transfers

I assert that the obligation data presented are associated against a financial plan that, if revised
                                                                                  ATTACHMENT
                                                                                  Page 3 of 4



during the fiscal year, properly reflects those changes, including ONDCP's approval of
reprogrammings or transfers affecting drug-related resources in excess of $1 million that
occurred during the fiscal year. As described above, NIDA had the following adjustments to its
appropriation for FY 2012: (1) a Secretary's Transfer of $300,000 for AIDS drug assistance
programs, (2) a Secretary's Transfer for Alzheimer Disease in the amount of $694,000.

Fund Control Notices

I assert that the obligation data presented are associated against a financial plan that complied
fully with all Fund Control Notices issued by the Director under 21 U.S.C. 1703(f) and with
ONDCP Circular Budget Execution, dated May 1, 2007.
                                                                    ATTACHMENT
                                                                    Page 4 of 4




            NATIONAL INSTITUTES OF HEALTH 

           NATIONAL INSTITUTE ON DRUG ABUSE 

                FY 2012 Actual Obligations 

                  (Dollars in Thousands) 


  RESOURCE SUMMARY
                                                   FY 2012
                                                    Actual

Drug Resources by Function:
Research and Development Prevention                      370,794
Research and Development Treatment                       681,574
  Total                                                1,052,368

Drug Resources by Decision Unit:
National I nstitute on Drug Abuse                      1,052,368
  Total                                                1,052,368




Differences Between (1) Actual Obligations and (2) the FY 12 Column of the 

     FY 13 CJ and the National Drug Control Strategy Budget Summary 

                   (Dollars in Thousands)

Total 2012 Col. of the FY 2013 CJ; National Drug Control Strategy   1,052,114
1 Comparable Transfers                                                   953
Secretary's Transfer for Alzheimer Disease                              -694
Lapse of Funds                                                             -5


             Total Obligations                                      1,052,368
